                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

  Case Number: 106030006                                                                    Page 1 ofl



          The OIG initiated an investigation based on a referral from an NSF-funded research organization!
          that an employee2 had been terminated due to malfeasance and potential fraud.

          Our investigation determined that the employee solicited and received $80,746 in kickbacks from
                      3
          two vendors. In turn, the employee used her position to award contracts to the two vendors.

          The United States Attorney's Office for the District of Colorado accepted the case for criminal
          prosecution. The employee was charged and subsequently pled guilty to one count of violation
          of 18 U.S.C. § 666(a)(l)(A), theft or bribery concerning programs receiving federal funds. The
          employee was sentenced to three years probation with 12 months of electronic monitoring. The
          employee was also ordered to pay restitution of $80,746. Following her conviction and
          sentencing, we recommended that NSF debar the employee for three years, which NSF did
          effective July 29,2009.

          Attached are the Judgment In A Criminal Case4, our debarment recommendationS, NSF's Notice
          of Proposed Debarment6, and NSF's Debarment notice1 •

          This case is closed.




          1   University Corporation for Atmospheric Research, Boulder, Colorado
          2   Colleen       former                   and        Center, UCAR
          3

         4 Tab I
         sTab2
         6 Tab 3
         7Tab4



NSF OIG Form 2 (11102)
~AO 245B     (Rev. 09/08) Judgment in a Criminal   cast
             Sheet I


                                         UNITED STATES DISTRICT COURT
                                                                   . District of                                COLORADO

         UNITED STATES OF AMERICA                                           JUDGMENT IN A CRIMINAL CASE
                             V.
                                                                            Case Number:                       08-cr-00233-MSK-0 1
                COLLEEN C. ERTLE
                                                                            USMNumber:                         35698-013

                                                                            Russell W. Richardson, Retained
                                                                            Defendant's Attorney
THE DEFENDANT:
IXl pleaded guilty to Count        ...!1...!o!!.f..:!th:!..!e2..JI~n:!..!fo:!!.nn!.!.!!lat!;!!io:!.!n!-_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _- - -

Dpleaded nolo contendere to Count(s)
  which was accepted by the Court.
D was found guilty on Count(s)
  after a plea of not gUilty.

The defendant is adjudicated guilty of these offenses:

Title & Section                   Nature of Offense                                                            Offense Ended                  Count
18 U.S.C. §§ 666(a)(1)(A)         Embezzling and Obtaining by Fraud Funds of an Organization                      03/31/04                       1
and 2                             Receiving Federal Program Funds and Aiding and Abetting

       The defendant is sentenced as provided in pages 2 through             9      of this judgment in accordance with the findings and
conclusions made in open court, a transcript oI::which is attached hereto and incorporated herein by this reference. The sentence is imposed
pursuant to the Sentencing Reform Act of 19&4.
D The defendant has been found not guilty on Count(s)
D Count(s)                                                0   is    D are dismissed on the motion of the United States.

          It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imfosed by this judgment are fuUy paid. I[ordered to
pay restitution, the defendant must notify the Court and United States attorney of materia changes in economic circumstances.

                                                                             December 29, 2008
                                                                             Date of Imposition of Judgment


                                                                            lsi Marcia S. Krieger
                                                                             Signature of Judge




                                                                             Marcia S. Krieger, U.S. District Judge
                                                                             Name and Title of Judge


                                                                             January 5,2009
                                                                             Date
AO 245B      (Rev, 09/08) Judgment in a Criminal Case
             Sheet 3 Probation
                                                                                                             Judgment Page    --2.-    of         9

DEFENDANT:                               COLLEEN ERTLE
CASE NUMBER:                           . 08·cr·00233-MSK·Ol
                                                                   PROBATION
The defendant is hereby sentenced to probation for a term of:        three (3) years.

The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrai~ from any unlawful us~ o~ a controlled
substance. The defendant shall submit to one drug test within 15 days of placement on probation and at least two periodic drug tests
thereafter, as determined by the Court.
!XI      'The above drug testing condition is suspended, based on the Court's determination that the defendant poses a low risk of
         future substance abuse. (Check, if applicable.)

!XI      The defendant shall not possess      a firearm, ammunition, destructive device, or any other dangerous weapon.     (Check, if applicable.)
                                                                                                                                      \,


!XI      The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)

o        The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or is a
         student, as directed by the probation officer. (Check, if applicable.)        .
o                                               f                                   ,

         The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)
       . If this judgment imposes a fine or restitution, it is a condition of probation that the defendant pay in accordance with the Schedule
of Payments sheet of this judgment.
          The defendant must comply with the standard conditions that have been adopted by this Court as well as with any additional conditions
on the attached page.
                                            STANDARD CONDITIONS OF SUPERVISION
   1)      the defendant shall not leave the judicial district without the permission of the Court or probation officer;
   2)      the defendant shall report to the probation officer and shall submit.a truthful and complete written report within the first five days of each
           month;                 .
   3)      the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
   4)      the defendant shall support his or her dependents and meet other family responsibilities;

   5)      the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
           acceptable reasons;
   6)      the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

   7)      the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled
           substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
   8)      the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

   9)      the defendant shaj) not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
           felony, unless granted permission to do so by the pr06atlon officer;               .
 10)       the defendant shall p'ermit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
           contraband observea in plain view ofthe probation officer;                                                                               ,
 11 )      the defendant shall notity the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;
 12)       the d~ft:ndant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
           permiSSion ofthe Court;        .
           as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant's criminal
  J 3)     record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the
           defendant's compliance with such notification requirement; and
 14)       the defendant shall provide access to any requested financial information.




                                                                                                                                            !
A024SB      (Rev. 09108) Judgment in a Criminal Ca,
            Sheet 3C - Probation
                                                                                                 Judgment-Page _ ...3,--_ of             9
DEFENDANT:                      COLLEEN ERTLE
CASE NUMBER:                    08-cr-00233-MSK-O 1

                                         SPECIAL CONDITIONS OF PROBATION
  I.     The defendant shall be placed on home detention for a period of twelve (12) months, to commence within 21 days of
         sentencin$' During this period, the defendant shall remain at her place of residence at all times other than time spent at
         work or time spent on otlier activities approved in advance by the probation officer. This period of home detention shall be
         enforced by electronic monitoring. To permit this monitoring, the defendant shall maintain a telephone at her (Jlace of
         residence without any special services, modems, answering machines, or cordless telephones. The defendant shall wear
         electronic monitoring devices and follow all other procedures specified by the probation officer. The defendant shall pay
         the cost of electronic monitoring as directed by the probation officer.
  2.     The defendant shall not incur new credit .charges or open additional lines of credit without the approval of theprobatioh
         officer, unless the defendant is in compliance with the periodic payment obligations imposed pursuant to the Court's
         judgment and sentence and approved by the Court.                     .
  3.     The defendant shall work with the probation officer in the development of a monthly budget that will be reviewed with the
         probation officer quarterly.                                                                                             .
  4.     Within 60 days of commencement of the term of rrobation the defendant shall meet with the probation officer to develop a
         plan for the payment of restitution. This plan wil be based upon the defendant's income, expenses;.. assets, and liabilities.
         The plan willl:ie forwarded to the Court for review and approval. The defendant shall supplement I1nancial information
         preylO~sly provided to the probation officer with a disclosure of all her assets and debts for purposes of developing the
         restitutIOn payment plan.
  5.     The defendant shall participate in a credit counseling program approved by the United States Trustee's Office.
AO 245B     (Rev. 09/08) Judgment in a Criminal Case                                                           ~    j,
                                                                                                                   I,.
            Sheet 5 Criminal Monetary Penalties
                                                                                                        Judgment - Page ---.,;4!...-_ of _ _.i!.9_ __
 DEFENDANT:                      COLLEEN ERTLE
 CASE NUMBER:                    08-cr-00233-MSK-0 1
                                            CRIMINAL MONETARY PENALTIES
        The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.


                    Assessment                                                  Fine                          Restitution
TOTALS            $ 100.00                                                    $ 0.00                        $ 80,746.00

 o      The determination of restitution is deferred
        until
                                                                          . An Amended Judgment in a Criminal Case (AO 245C) will
                                                                  _ _ _ _ be         .            '\
        entered after such determination.

 IX!    The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

        Ifthe defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
        otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all non federal
        victims must be paid before the United States is paid.
                                                                                                J

 Name of Payee                               Total Loss"                          Restitution Ordered                    Priority or Percentage
UCAR
P.O. Box 3000
Boulder, CO 80307
Attn: Melissa Miller,                         $80,746.00                                $80,746.00
Director of Budget and
Finance




TOTALS                              $ _ _ _ _~80~,7:.::4~6.~00~                $ _ _ _ _ _8~0~17:.::4::;.;6.~00~


o      Restitution amount ordered pursuant to plea agreement _ _ _ _ _ _ _ _ __

IX!    The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
       fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
       to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

o      The Court determined that the defendant does not have the ability to pay interest and it is ordered that:

       o the interest requirement is waived for               0     fin   D     restitution.

       o   the interest requirement for         D      fine       D   restitution is modified as follows:
                                                       ,
'" Findings for the total amount of losses are required under Chapters I 09A, I 10, I lOA, and I I 3A of Title 18 for offenses committed
on or after September 13,1994, but before Apn123, 1996.
                                                                                     /
AO 245B      (Rev. 09/08) Judgment in a Criminal Cas<
             Sheet 6 Schedule of Payments
                                                                                                  Judgment     Page   -L     of       9

 DEFENDANT:                   COLLEEN ERTLE
 CASE NUMBER:                 08-cr-0023 3-MSK-O 1
                                                        SCHEDULE OF PAYMENTS

 Having assessed the defendant's ability to pay, payment ofthe total criminal monetary penalties are due as follows:

 A    D      Lump sum payment of                              due immediately, balance due

             D     not later than                                 , or
             D     in accordance         0    C     0    0,   0       E,or    D Fbelow;or

 B !Xl       Payment to begin immediately (may be combined                   Dc,    DO,or    IXJF below); or
                                                                                                   ~




 c D         Payment in equal              (e.g., weekly, monthly, quarterly) installments of                     over a period of
            _ _ _ _ _ (e.g., months or years), to commence              (e.g., 30 or 60 days) after the date of this judgment; or

 D    D     Payment in equal                  (e.g., weekly, monthly, quarterly) installments of                   over a period of
                         (e.g., months or years), to commence              (e.g., 30 or 60 days) after release from imprisonment to a
            --~-
            term of supervision; or

 E    D      Payment during the term of supervised release will commence                   (e.g., ~O or 60 days) after release from
             imprisonment. The Court will set the payment plan based on an assessment of the defendant's ability to pay at that time;

 F    !Xl    Special instructions regarding the payment of criminal monetary penalties:
             The special assessment is due immediately. Restitution shall be paid pursuant to the payment plan approved by the Court.



 Unless the Court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
 due dud ng imprisonment. AU criminal monetary penalties, exceRt those payments made through the FederarBureau ofPnsons' Inmate
 Financial Responsibility Program, are made to tne clerk of the Court.

 The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.




D     Joint and Several




D     The defendant shall pay the cost of prosecution.
D     The defendant shall pay the following Court
      cost(s):
D     The defendant shall forfeit the defendant's interest in the following property to the United States:


 Payments shall be applied in the following order: (I) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
 (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and Court costs.
AO 245B (Rev. 09108) Criminal Judgment
        Attachment (Page I) Statement of Reasons
                                                                                                                           Judgment Page _ _
                                                                                                                                           6_ of                       9
DEFENDANT:                         COLLEEN ERTLE
CASE NUMBER:                       08-cr-00233-MSK-OI

                                                            STATEMENT OF REASONS

I      COURT FINDINGS ON PRESENTENCE INVESTIGATION REPORT

       AlXJ         The Court adopts the presentence Investigation report without change.

       B        0   The Court adopts the presentence investigation report with the following changes.
                    (Check all that apply and specify Court determination, findings, or comlJlents, referencing paragraph numbers in the presentence report, if applicable.)
                    (Use page 4 if necessary.)

                    o     Chapter Two of the V.S.S.G. Manual determinations by Court (including changes to base offense level, or specific offense characteristics):


            2       o     Chapter Three of the V.S.S.G. Manual determinations by Court (including changes to victim-related adjustments, role in the offense, obstruction
                          of justice, multiple Counts, or acceptance of responsibility):                                                                             .


            3       o     Chapter fou.rofthe V.S.S.G, Manual determinations by Court (including changes to criminal history category or scores, career offender, or
                          crlmmal livelihood determmatlOns):



            4       o    Additional Comments or FindinJl~ (including comments or factual findings concerning certain information in the
                         presentence r~port t~a! the FederarBureau of Prisons may rely on when it makes inmate classification, designation,
                         or programmmg decIsions):


      C     0       The record establishes no need for a presentence investigation report pursuant to Fed.R.Crim.P. 32.
                                                                \
II    COURT FINDING ON MANDATORY MINIMUM SENTENCE (Check all that apply.)

      AlXJ          No Count of conviction carries a mandatory minimum sentence.

      B 0           Mandatory minimum sentence imposed.

      C D           One or more Counts of conviction all;ged in the indictment carry a mandatory minimum term of imprisonment, but the
                    sentence imposed is below a mandatory minimum term because the Court has determined that the mandatory minimum          i
                    does not apply based on

                    o    find jngs of fact in this case
                    o    substantial assistance (18 V.S.c. § 3553(e))
                    o    the statutory safety valve (18 U.S.c. § 3553(f})




III   COURT DETERMINATION OF ADVISORY GUIDELINE RANGE (BEFORE DEPARTURES):

      Total Offense Level: ..:1~3:..-_ _ _ _ _ _ _ _ _ _ __
      Criminal History Category: ,.!I_ _ _ _ _ _ _ _ _ _ __
      Imprisonment Range:            12      to               -18         months
      Supervised.Release Range:            2                  to           3     years
      Fine Range: $ 3,000               to $ ,.;;;3""0,,,.:.;0:;:,.00"--_ _
      IX!  Fine waived or below the guideline range because of inability to pay.
AO 2458      (Rev. 09/08) Criminal Judgment
             Attachment (page 2) Statement of Reasons
                                                                                                                       Judgment Page ~ of                           9
DEFENDANT:                          COLLEEN ERTLE
CASE NUMBER:                        08-cr-00233-MSK-O 1

                                                            STATEMENT OF REASONS

IV    ADVISORY GUIDELINE SENTENCING DETERMINATION (Check only one.)

      A      D         The sentence Is within an advisory guideline range that !s not greater than 24 months, and the Court finds no reason to depart.

      B      D         The sentence is within an advisory guideline range that is greater than 24 months, and the specific sentence is imposed for these reasons.
                       (Use page 4 if necessary.)


      C      D         The Court departs from the advisory guideline range for reasons authorized by the sentencing guidelines manual.
                       (Also complete Section V.)

      D      IX!       The Court imposed a sentence outside the advisory sentencing guideline system. (Also complete Section VI.)

V     DEPARTURES AUTHORIZED BY THE ADVISORY SENTENCING GUIDELINES (If applicable.)

      A      The sentence imposed departs (Check only one.):
             D      below the advisory guideline range
             D      above the advisory guideline range

      B      Departure based on (Check all that apply.):

                             Plea Agreement (Check all that apply and check reason(s) below.):
                             D      5K 1.1 plea agreement based on the defendant's substantial assistance
                             D      5K3.1 plea agreement based on Early Disposition or "Fast-track" Program
                             D      binding plea agreement for departure accepted by the Court
                             D      plea agreement for departure, which the Court finds to be reasonable
                             D      plea agreement that states that the government will not oppose a defense departure motion.
             2               Motion Not Addressed in a Plea Agreement (Check all that apply and check reason(s) below.):
                             D     5K 1.1 government motion based on the defendant's substantial assistance
                             D     5K3.1 government motion based on Early Disposition or "Fast-track" program
                             D     government motion for departure
                             D     defense motion for departure to which the government did not object
                             D     defense motion for departure to which the government objected
             3               Other
                             D      Other than a plea agreement or motion by the parties for departure (Check reason(s) below.):
      C          Reason(s) for Departure (Check all that apply other than 5Kl.I or 5K3. I.)

D    4AI.3        Criminal History Inadequacy               D     SK2.1  Death                                    D     SK2.11   Lesser Hann
D    SHU          Age                                       D     SK2.2  Physical Injury                          D     SK2.12   Coercion and Duress
D    SHI.2        Education and Vocational Skills           D     SK2.3  Extreme Psychologicallnj ury             D     SK2.13   Diminished Capacity
D    SHU          Mental and Emotional Condition            D     SK2.4 Abduction or Unlawful Restraint           D     SK2.14   Public Welfare
D    5HI.4        Physical Condition                        D     SK2.5 Property Damage or Loss                   D     SK2.16   Voluntary Disclosure of Offense
D    SHU          Employment Record                         D     SK2.6 Weapon or Dangerous Weapon                D     SK2.17   High·Capacity, Semiautomallc Weapon
D    5HI.6        Family Ties and Responsibilities          D     SK2.7 Disruption of Government Function         D     SK2,18   Violent Street Gang
D    SHlll        Military Record, Charitable Service.      D     SK2.8 Extreme Cond uct                          D     SK2.20 Aberrant Behavior
             I
                  Good Works                                D     SK2,9 Criminal Purpose                          D     SK2.21 Dismissed and Uncharged Conduct
D    5K2.0        Aggravating or Mitigating Circumstances   D     SK2.10 Victim's Conduct                         D     SK2.22 Age or Health of Sex Offenders
                                                                                                                  D     SK2.23 Discharged Terms of Imprisonment
                                                                                                                  D     Other guideline basis (e.g., 2B 1.1 commentary)

      D          Explain the facts justifying the departure. (Use page 4 if necessary.)
A0245B   (Rev, 09{08) Criminal Judgment
         Attachment (page 3) Statement of Reasons
                                                                                                                        Judgment Page      - L of                    9
DEFENDANT:                      COLLEEN ERTLE
CASE NUMBER:                    08-cr-00233-MSK-Ol

                                                        STATEMENT OF REASONS

VI   COURT DETERMINATION FOR SENTENCE OUTSIDE THE ADVISORY GUIDELINE SYSTEM
     (Check all that apply.)

     A   The sentence imposed is (Check only one.):
         !Xl below the advisory guideline range
         o     above the adviso'ry guideline range

     B   Sentence imposed pursuant to (Check all that apply.):

                        Plea Agreement (Check ,all that apply and check reason(s) below.):
                        o    binding plea agreement for a sentence outside the advisory guideline system accepted by t~e Court
                        o
                        o
                             plea agreement for a sentence outside the advisory guideline system, which the Court finds'to be reasonable
                             plea agreement that states that the government will not oppose a defense motion to the Court to sentence outside the advisory guideline
                             system


                        o
         2              Motion Not Addressed in a Plea Agreement (Check all that apply and check reason(s) below.):

                        o
                            government motion for a sentence outside of the advisory guideline system

                        o
                            defense motion for a sentence outside ofthe advisory guideline system to which the government did not object
                            defense motion for a sentence outside of the advisory guideline system to which the government objected

         3              Other
                        !Xl Other than a plea agreement or motion by the p~rties for a sentence outside of the advisory guideline system (Check reason(s) below,):

     C   Reason(s) for Sentence Outside the Advisory Guideline System (Check all that apply.)

               the nature and circumstances of the offense and the history and characteristics of the defendant pursuant to 18 U,S,c' § 3553(a)( I)

               to reflect the seriousness ofthe offense, to promote respect for the law. and to provide just punishment for the offense (18 U,S,c' § 3553(a)(2)(A»

               to afford adequate deterrence to criminal conduct (18 U,S.C, § 3553(a)(2)(8»

               to protect the public from further crimes of the defendant (18 U.S,c' § 3553(a)(2)(C»

               to provide the defendant with needed educational or vocational training, medical care, or other correctional treatment in the most effective manner
               (18   US.C, § 3553(a )(2)(0»
         o     to avoid unwarranted sentencing disparities among defendants (18 USc. § 3553(a)(6»
         !Xl   to provide restitution to any victims of the offense (18 US,C, § 3553(a)(7».


     D   Explain the facts justifying a sentence outside· the advisory guideline system. (Use page 4 if necessary,) (The defendant is
         sentenced as provioed in pages 2 through 10 of this judgment in accordance with the findings and conclusions made in open
         court, a transcript of which IS attached hereto and incorporated herein by this reference. The sentence is imposed pursuant to
         the Sentencing Refonn Act of 1984.)                                                                           .
A0245B        (Rev. 09/08) Criminal Judgment
              Attachment (Page 4)- Statement of Reasons

                                                                                                                           Judgment-Page _ _
                                                                                                                                           9 _ of                    9
DEFENDANT:                        COLLEEN ERTLE
CASE NUMBER:                      08-cr-00233-MSK-Ol

                                                             STATEMENT OF REASONS

VII   COURT DETERMINATIONS OF RESTITUTION

      A   0   Restitution Not Applicable.


      B Total Amount of Restitution:            ..,:;8:.,:;:OJ..(,7.;.:4.:.:;6.:.:.:.00~_ _ _ __


      C Restitution hot ordered (Check only one.):

               o    For offenses for which restitution is otherwise mandatory under 18 U. S:c. § 3663A, restitution is not ordered because the number of
                    identifiable victims is so large as to make restitution impracticable under 18 U.S.C. § 3663A(c){3)(A).

          2    0    For offenses for which restitution is otherwise mandatory under 18 U.S.C. § 3663A, restitution is not ordered because determining complex
                    issues of fact and relating them to the cause or amount of the victims' losses would complicate or prolong the sentencing process to a degree
                    that the need to provide restitution to any victim would be outweighed by the burden on the sentencing process under 18 U.S.C. § 3663A(c)(3)(B).

          3    0    For other offenses for which restitution is authorized under 18 U.S.C. § 3663 andlor required by the sentencing guidelines, restitution is not
                    ordered because the complication and prolongation of the sentencing process resulting from the fashioning of a restitution order outweigh
                    the need to provide restitution to any victims under 18 USC. § 3663(a)(I)(B)(ii).

          4   0     Restitution is not ordered for other reasons. (Explain.)




      D   0   Partial restitution is ordered for these reasons (18 U.S.c. § 3553(c)):




VIII ADDITIONAL FACTS JUSTIFYING THE SENTENCE IN THIS CASE (If applicable.) (The defendant is sentenced as
provided in pages 2 through 10 of this judgment in accordance with the findings and conclusions made in open court, a transcript of
which is attacned hereto and incorporated herein by this reference. The sentence is imposed pursuant to the Sentencing Reform Act of
1984J                                                                                                             '    .




                   Sections I, II, III, IV, and ViI of the Statement of Reasons form must be' completed in all felony cases.
                                NATIONAL SCIENCE FOUNDA, .,.~
                                   4201. WILSON BOULEVARD
                                  ARLiNGTON. VIRGINIA 22230




                                         MAR 3 12009
    OFFICE OF
INSPECTOR GENERAL




             To:    Arden L. Bement, Jr.
                    Director
                         f1   ~~~
         From:.-1I'j;brlldfis C. Cross
               jl'I1 Interim Inspector General
       Subject:     Recommendation for Debarment Action (OIG Case No. 106030006)


Attached is our recommendation for debarment of Colleen C. Ertle, former Manager, bnaging
and Design Center, at the University Corporation for Atmospheric Research (UCAR), for
conviction of theft that resulted in a financial loss to UCAR and the federal government totaling
$80,746.

W e r~commend that NSF debar Ms. Ertle for a period of three years. We believe this action will
adequately protect NSF's interests. Our recommendation and supporting facts are in the
attached report. Ms. Ertle was not provided with a copy of this report nor was she provided an
opportunity to comment due to her criminal conviction.

If you have any questions about then~~port or our recommendation, I would be happy to discuss
them with you.· My staffp6int of contact forthis matter is James Evans at 703-292-7398.



Attachment

cc:    Lawrence Rudolph, General Counsel
       James H. Lightboume, Office of Director's Liaison to OrG
                                    (-
                       (   --- ..
                                    .

                                                                                        CONFIDENTIAL
CONFIDENTIAL




       National Science Foundation
       Office of Inspector General




                         Confidential
                   Report of Investigation
                   Case Number 106030006
                       March 30, 2009


  This Confidential Repon of Investigation is the property of the NSF 01 G and may be disclosed outside
       NSF only byOIG under the Freedom of Information and Privacy Acts, 5 U.S.C §§ 552, 552a.

                                                                                   NSF OIG Form 22b (11(06)
                  (.(                                     (


                                 Executive Summary

Allegation        The University Cotporation for Atmospheric Research (UCAR) reported
                  that a fonner employee accepted kickbacks from a vendor. OIG initiated
                  an investigation because UCAR receives substantial NSF funding.

Subject           Colleen C. Ertle, fonner Manager, Imaging and Design Center (lDC),
                  UCAR, from January 1994 to June 2005.

Investigation     OIG found that Ertle used her position to solicit kickbacks from two
                  UCAR vendors .. Ertle received $~0,746 in illegal payments from two
                  vendors from 2002 to 2005. In exchange for the payments, Ertle ensured
                  the vendors received substantial business with UCAR.

DOJ
Prosecution       The U.S. Attorney's Office for the District of Colorado accepted the case
                  for criminal prosecution. Ertle was indicted for a violation of 18 U.S.c.
                  § 666(a)(I)(A), theft from an organization receiving federal funds. Ertle
                  pled guilty to the charge and was sentenced to 12 months home detention
                  with electronic monitoring, three years probation, a $100 Special
                  Assessment fee, and restitution of $80,746.
OIG
Recommendation   . Based upon the facts described herein, OIG recommends that NSF debar
                   Ertle for three years.




                                           1
                          (_. (                                         (~.    ~.




 I.      Factual Background

 A Research Organization I reported to OIG that a fonner employee,2 (the Subject), accepted
 kickbacks from a vendor. The Research Organization also detected that the Subject had
 improperly inflated invoices. The Research Organization tenninated the Subject in 2005 due to .
 malfeasance and potential fraud.

  OIG initiated an investigation because the Research Organization receives substantial NSF
  funding. For example, the Research Organization expended $27.6 million in NSF funds for the
  quarter ending December 21,2008. The OIG investigation revealed that the Subject directed two
  printing vendors 3 to add management fees to their invoices and to keep their bids below $5,000
. to avoid competition. The Subject ensured both vendors received substantial business from the
  Research Organization. One vendor4 received approximately $217,191 from the Research'
  Organization based on invoices approved by Subject in 2002 and 2003. The other vendorS
  received approximately $450,456 from the Research Organization during 2003-2005, as a result
  of his arrangement with the Subject. When interviewed by OIG, the employee ofvendortw0 6
  acknowledged that he added management fees to his UCAR jobs and split them with the Subject.
  When interviewed by OIG, the Subject denied accepting management fees from vendor two.

 OIG subsequently uncovered evidence that showed the Subject received illegal payments from
 the two vendors from approximately February 2002 to June 2005; the evidence is described in
 the Statement of Facts that accompanied the Plea Agreement signed by the Subject, attached at
 Tab 1.


 II.     Prosecution by the Department of Justice

 We presented our findings to the United States :Attorney's Office (USAO) for the District of
 Colorado. An Assistant United States Attorney (AUSA) was assigned to prosecute the case. 7
 The AUSA filed a criminal infonnation charging the Subject with one count of violation of
 18 U.S.C. § 666(a)(I)(A), theft or bribery concerning programs receiving federal funds; is
 attached at Tab 2. The Subject pled guilty. During the sentencing hearing, the U.S. District
 Court Judge concurred with the AUSA that Subject initiated a pay-to-play scheme with vendors;
 the transcript is attached at Tab 3. The Subject was sentenced to' serve three years probation,
 with the first 12 months in horne detention with electronic monitoring. The Subject was also
 ordered to pay a $100 special assessment fee and restitution of $80,746; the Judgment in a
 Criminal Case is attached at Tab 4. The USAO issued a press release about the investigation,
 attached at Tab 5.


 I The University Corporation for Atmospheric Research (UCAR), Boulder, Colorado.
 2 Colleen C. Ertle, fonner Manager, Imaging and Design Center, UCAR.
 3 Kaufman Printing and Creative Footprint.
 4 Kaufman Printing (vendor one).
 S Creative Footprint (vendor two).
 6 John
 7 Kenneth Harmon, Criminal Fraud Section.




                                                      2
                          (



III.    OIG Assessment'

        A. Grounds for Debarment

NSF may debar a person for "Conviction ... for ... Commission of embezzlement, theft ... or
... Commission of any other offense indicating a lack of business integrity or business honesty
that seriously and directly affects [the person's] present responsibility .... " 8 The Subject pled
guilty to violating 18 U.S.C. § 666(a)(I)(A) for acts constituting theft, and her conduct clearly
indicates a lack of business integrity and honesty.

        B. Burden of Proof

In debarment actions, the burden of proof lies with NSF to demonstrate by a preponderance of
the evidence that cause for debarment exists9 "Ifthe proposed debarment is based upon a
conviction or civil judgment, the standard of proof is met.,,10 Since this proposed debarment is
based on the Subject's conviction for theft, the burden of proof is met.
                              \


        C. Relevant Factors

The debarment regulation lists 19 fact'ors. for the debarring official to consider. II The follQwing
factors are pertinent to this case:

                 1. Actual or Potential Harm or Impact 12

The Subject's actions resulted in a financial loss of $80,746 to the Research Organiz~tion.

                 2. Frequency or Duration of Incidents 13

Over a three year period, the Subject received approximately 70 illegal' payments from the two
vendors before the scheme was detected.




8 2CF.R. § 180.800(a)(3) & - (4).
9 2 C.F.R. § 180.850(a) & -.855.
10 2 CF.R. § IS0.S50(b).
II 2 C.F.R. § IS0.S60.
122 C.F.R. § IS0.860(a).
13 2 CF.R. § lS0.860(b).




                                                  3
                                co (
                                                 l4
                     3. Pattern of Wrongdoing
                                                                              ,
The Subject received illegal payments from the two (vendors routinely from 2002 into 2005. The
Subject continually used her position to solicit and obtain illegal payments from vendors and
ensured the vendors received substantial business with the Research Organization.

                      4. Role in W ro~gdoingl5

For approximately three years, the Subject used her position to plan and initiate a pay-to-play
scheme with two vendors.

                      5. Acceptance of Responsibility16

The Subject did not accept responsibility for her actions until after extensive negotiations
between her attorney and the AUSA, after which she pled guilty.

                      6.   Repayment)7

As part of sentencing, the Court ordered the Subject to make restitution for $80,746, but she has
not yet paid.

                      7. Cooperation of the Subject18

The Subject failed to cooperate with the OIG investigation, lying to OIG investigators when she
was interviewed.

                      8. Position HeJd by Subject)9

The Subject used her position as manager to solicit and accept illegal payments from vendors
and steer contracts to the vendors who paid her.

II. Recommendations

Despite the Subject's sentence, she possesses skills to be hired in a position administering federal
awards. In order to further protect the interests of the public and NSF, we recommend that NSF
debar the Subject for three years.




142  C.F.R.   §   ISO.S60(c).
15 2 C.F.R.   §   ISO.860(t).
16 2 C.F.R.   §   l80.860(g).
172 C.F.R.    §   lS0.860(h).
18 2 C.F.R.   §   lS0.860(h).
19 2 C.F.R.   §   lS0.S60(k)


                                                      4
~/   '   .. ,.   \


                                      (
                                (


Attachments:

Tab 1,                Subject's Plea Agreement and Statement of Facts

Tab 2                . Subject's Information

Tab 3                 Court Transcript

Tab 4                 Subject's Judgment

TabS                  Press Release




                                                       5
--.
                                       NATIoNALSCIENCE FOUNDATION
                                           4201 WILSON BOULEVARD
                                          ARLINGTON. VIRGINIA 22230



                                              JUL 2 9 Z009.

             .
          OFFICE OF THE .
        DEPUTY DIRECTOR




     CER'11FIED MAIL -RETURN RECEIYf REQUESTED

     cOlleen C. Ertle
     12313 Clermont Place
     Denver, CO 80241

             Re: Notice ofProposed Debarment


     Dear Ms. Ertle:

     IJi light ofyour misconduct,· this ietter serves as formal notice that the National Science
     Foundation ("NSF') is proposing to debar you from directly or indirectly obtaining the benefits of
  Federal grants for .three years. During your period of debarment, you will be precluded trom
  receiving Federal financial and non-financial assistance and benefits under non-procurement
 -Federal programs and activities.. In addition, you will be prolnbited from receiving any Federal
  contracts or approved subcontracts under the Federal Acquisition Regulations ("FAR"). Lastly,
  during Your debarment period, you will be barred from having supervisory responsibility, primary
  management, substantive control over, or critical influence on, a grant, contract, or cooperative .
  agreement with any agency ofthe Executive Branch Qfthe Federal Government.

     Reason lor Debarment

   Yourjdebarment is based upon a referral wm NSF's Office ofInspector General ("OIG"). NSF's
 . record demonstrates that you pleaded guilty to "embezzling and obtaining by bud funds of an
   organization receiving Federal program fundS and aiding and abetting." You were sentenced to
   serve three years probation, with the first 12 months in oome detention. .You were also ordered
 <




   to pay restitution of$80,746.00.

                                                                                 "::.
't. • (~




            Regulatory Basis for Debarment

            Pursuant to 2 CPR 180.800, debarment lIUlybeimposed for:

            (a) Conviction of or civil judgment for-

            (l) Commission offtaud or a aiminal offense in connection ~ obtaining, attempting to obtain,
            or performing a public or private agreement or transaction; or

            •••
            (3) Commission of embezzlement, theft, forgery, bribery, fhlsification or destruction of records,
            making false statements, tax evasion, receiving stolen property, making :ta1se claims, or
            obstruction ofjustice;                                                              .

             In any debarment action, the government must establish the cause fur debarment by a
            .preponderance of the evidence. 2 CPR 180.850. If; as in this case, the proposed debarinent is
             based upon a convictiOn or civil judgment, the standard of proof is met. ld. Therefure, yout
           . conviction fur embezzlement and' fraud supports a cause fur debarment under 2 CPR
            . 180.800(a)(l)and (3). .          '


            Length ofDebarment

             Debarment must be for a period commensurate with the seriousness of the causes upon which an
             individual's debarment is based. 2 CPR 180.865. Generally, a period of debarment should not
             exceed three years but, where circwnstances warrant, a longer period may be imposed. ld.
           . Having co~ered the seriousness of     yom actions, as well as the relevant aggravating and    .
            .mitigating mctors set forth in 2 CPR 180.860, we are proposing debarment for a period of three
            .years.


            Procedures Governing Proposed Debarment.

             The provisions of2CFRSections 180.800 through 180.885 govern debarment procedures and
             deciSion-making. Under our regulations, you have 30 days after receipt of thiS notice to submit,
             in person, or in writing, or ,though a representative, information and argument in opposition to this
             proposed·debannent. 2 CPR 180.815, 180.820. Please note, however, that because your
             debarment is based on a conviction, you will not have an opportunity to challenge the facts
           . underlying the conviction. 2 CPR 180.830(a). Comments submitted within the 3O-dayperiod will
             receive fun consideration and may lead to a revision of the reoonnnended disposition. If NSF
             does not receive a response to this notice within the 30-day period~ this debannent will become
             final.
 Any response should be ~dressed to Lawrence Rudolph, GeriCral ColUlSel, National Science
 Foundation, Office of the General CoWlSel, 4201.Wilson Boulevard, Room 1265, Arlington,
 Virginia, 22230. For YOlQ." information, we are attaching a copy of the FoUndation's regulations
 on non-procurement debarment and FAR Subpart 9.4.




                                                    . Siit~ely,



                                                      Cora B. Marrett
                                                      Acting Deputy Director


 Enclosures:
 Nonprocurement Dooarment RegUlations
. FAR Regulations .


 cc:    Russell Richardson
        1650 Washington Street
        Denver, CO 80203·
         7'
.~--'"' ~r-   ..t'

                                                         .\TIONALSCIENCE FOUNDATIOI
                                                            4201 WILSON BOULEVARD
                                                           ARLINGTON, VIRGINIA 22230




                                                                 OCT 2 6 2009.
                         OFFICE OF THE
                        DEPUTY DIRECTOR




                     VIA CERTIFIED MAIL - RETURN RECEIPT REQUESTED

                     Colleen C. Ertle
                     12313 Clermont Place
                     Denver, CO 80241 .


                            Re: Debarment

                     Dear Ms. Ertle:

                     On July 29, 2009, the National Science Foundation ("NSF") sent you a Notice of Proposed
                     Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
                     of Federal grants for three years. The Notice sets forth in detail the circumstances giving rise to
                     NSF's decision to propose your debarment. Specifically, NSF indicated in the Notice that the
                     proposed debarment is based upon your conviction for "embezzling and obtaining by fraud funds
                     of an organization receiving Federal program funds and aiding and abetting." In that Notice, NSF
                     provided you with thirty days to respond to the proposed debarment.

                     Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
                     debarred until July 29, 2012. Debarment precludes you from receiving Federal financial and non-
                     financial assistance and benefits under non-procurement Federal programs and activities unless an
                     agency head or authorized designee makes a determination to grant an exception in accordance
                     with 2 CFR Section 180.135. Non-procurement transactions include grants, cooperative
                     agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
                     insurance, payments for specified use, and donation agreements.
                                           -
                     In addition, you are prolnbited from receiving Federal contracts or approved subcontracts under
                     the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period ofthis
                     debarment. 2 CFR Section 180.170. During the debarment period, you may not have supervisory
                     responsibility, primary management, substantive control over, or critical influence on, a grant,
                     contract, or cooperative agreement with any agency of the Executive Branch of the Federal
                     Government.
                      f

     - .;f
      ...   ..,.,',       ,-<   \ ..



~.




                                       If you have any questions regarding the foregoing, please contact Eric S. Gold, Assistant General
                                       Counsel, National Science Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard,
                                       Room 1265, Arlington, Virginia, 22230.




                                                                                           Sincerely,

                                                                                           ~B.~~.
                                                                                           Cora B. Marrett
                                                                                           Acting Deputy Director .
                                                                                                                                           .'
